FRAUD CONVICT MAKES PARTIAL RESTITUTION TO CORPORATION

A former non-profit executive who was convicted in 2002 of defrauding
the AmeriCorps program has made partial restitution to the Corporation
for National and Community Service (Corporation).

Ms. Ruby Buck, former president and chief executive officer of
Mississippi Action for Community Education (MACE), made a restitution
payment of $16,751.57 on Dec. 2, 2003, the U.S. District Court of
Mississippi announced. She was ordered in January 2002 to repay
$116,751.67 to the Corporation following her conviction on one count of
misapplication of AmeriCorps funds and 14 counts of submitting
fraudulent AmeriCorps participant documents to the Corporation.

Ms. Buck, who was charged and convicted following an investigation by
the Office of Inspector General (OIG), was also sentenced to 41 months
in Federal prison, followed by three years of supervised probation.

An investigation by the OIG found that Ms. Buck supplemented the
salaries of MACE employees by falsely reporting them as AmeriCorps
members. This allowed MACE employees, none of whom performed AmeriCorps
service, to illicitly receive Corporation-funded AmeriCorps stipends
and medical insurance coverage.
